OIG Audit Report GR-40-09-004

The Office of Justice Programs Grants Awarded to the South Carolina Department of Juvenile Justice, Columbia, South Carolina
Audit Report GR-40-09-004
June 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has  completed an audit of Grant Number 2002-RE-CX-0012 awarded by the Office of  Justice Programs (OJP) to the South Carolina Department of  Juvenile Justice (SCDJJ).   From July 2002 through September 2004, OJP awarded $1,051,980 to the  SCDJJ for the Serious and Violent Offender Reentry Initiative (SVORI).  The overall goal of the SVORI was to develop,  implement, enhance, and evaluate reentry strategies to ensure the safety of the  community and reduce serious, violent crime and recidivism.
We  tested compliance with essential grant conditions pertaining  to drawdowns, budget management and control, expenditures, reporting, and accomplishments. In addition,  we tested the accounting records to determine if costs claimed under the grant  were allowable, supported, reasonable, and in accordance with applicable laws,  regulations, guidelines, and the terms and conditions of the grant.  We identified $7,277 in questioned costs and  identified the following audit findings.1

The SCDJJ could not support  $3,870 of $321,305 in other direct costs charged to the grant.
The SCDJJ charged $3,407 in unallowable indirect costs to the grant.
The SCDJJ overstated total outlays on the four financial reports that we tested by $3,618, $3,411, $870, and $150,045.
The four progress reports that we tested were submitted 90, 99, 235, and 62 days late, and the SCDJJ did not maintain supporting documentation for the data in the reports.

These  concerns are discussed in detail in the Findings and Recommendations section of  the report.  Our audit objectives, scope, and methodology  appear in Appendix I.


 

Footnotes

The Inspector General Act of 1978, as amended, contains our reporting  requirements for questioned costs and funds put to better use.  However, not all findings are  dollar-related.  See Appendix III for a  breakdown of our dollar-related findings and for a definition of questioned  costs.





 




Return to OIG Home Page